No. 19-783
IN THE

Supreme Court of the United States
————
NATHAN VAN BUREN,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
————
On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
————
BRIEF OF THE
MANAGED FUNDS ASSOCIATION
AS AMICUS CURIAE
IN SUPPORT OF RESPONDENT
————
JOSEPH V. DEMARCO
Counsel of Record
DAVID M. HIRSCHBERG
DEVORE & DEMARCO LLP
99 Park Avenue, Suite 1100
New York, NY 10016
(212) 922-9499
(917) 576-2369
jvd@devoredemarco.com
Counsel for Amicus Curiae
September 1, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

iv

INTEREST OF AMICUS CURIAE .....................

1

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

6

I.

PETITONER’S INTERPRETATION OF
THE CFAA, IF ADOPTED, WOULD
LIMIT THE APPLICABILITY OF THE
CFAA ALMOST ENTIRELY TO THE
ACTIONS OF OUTSIDERS, RENDERING IT INEFFECTIVE AGAINST THE
OFTEN FAR MORE SIGNIFICANT
THREAT POSED BY FAITHLESS INSIDERS TO CONFIDENTIAL COMPUTER
SYSTEMS AND INFORMATION ............

6

A. Modern Financial Firms Gather,
Create, Maintain, and Rely Upon
Massive Amounts of Non-Public Data
and Proprietary Programs in the Course
of Conducting their Business ..............

6

B. Certain Employees and Third Parties
Must Be Granted Access to Valuable
Proprietary Data and Systems in
Order for Those Systems to Operate
Properly................................................

8

C. Investment Firms Implement Robust
Procedures to Secure their Digital
Assets ...................................................

9

(i)

ii
TABLE OF CONTENTS—Continued
Page
II.

INVESTMENT FIRMS ARE UNDER
CONSTANT THREAT OF DATA THEFT
BY FAITHLESS INSIDERS.....................

12

III. THE READING OF THE CFAA
ADVANCED BY PETITIONER UNDERCUTS THE STATUTE’S EFFECTIVENESS AT PREVENTING CYBERCRIME AND IS CONTRARY TO THE
PLAIN MEANING OF THE STATUTORY LANGUAGE ..................................

17

A. Giving Weight to the Terms of Employment Contracts and Policies Reinforces the Common Understanding
that One’s Rights Concerning the
Property of Another Extend Only as
Far as They Are Granted ....................

18

B. An Interpretation of the CFAA Which
Excludes All Actions of Those with
Legitimate Access to a Computer
System Improperly Limits the Statute
in a Manner Inconsistent with the
Actual Text of the Statute ...................

20

C. Concerns that a Broad Interpretation
of “Without Authorization” under the
CFAA Would Require Examination of
Defend-ants’ Subjective Motivations
Are Not Significant in the Context of
Clearly-Communicated, Action-Based
Limitations on Authorization .............

22

iii
TABLE OF CONTENTS—Continued
Page
D. Taking into Consideration Policy and
Contract-Based Limitations on Computer System Use in the Context of
Employer-Provided Systems Raises
No More “Private Criminal Law”
Concerns than Does Consideration of
Technology-Based Controls .................

23

E. Focusing Purely on Technological
Access Controls Leads to Plainly
Absurd Results .....................................

24

CONCLUSION ....................................................

26

iv
TABLE OF AUTHORITIES
CASES

Page(s)

Enhanced Recovery Co. LLC v. Frady,
No. 3:13-cv-1262, 2015 WL 1470852
(M.D. Fla. Mar. 31, 2015) .........................

22

United States v. Agrawal,
726 F.3d 235 (2d Cir. 2013) ......................

16

United States v. Aleynikov,
676 F.3d 71 (2d Cir. 2012) ........................

16

United States v. Aleynikov,
737 F. Supp. 2d 173 (S.D.N.Y. 2010)........

16

STATUTES AND REGULATIONS
15 U.S.C. § 80b-6 (2012) ...............................

19

17 U.S.C. § 1201(a)(1)(A) (2012) ..................

20

18 U.S.C. § 1030.............................................. passim
18 U.S.C. § 1030(a)(4) ......................................

15

18 U.S.C. § 1030(e)(6) (2012)...........................

21

17 C.F.R. § 240.10b-5 ...................................

19

17 C.F.R. § 248.201 (2016) ...........................

19

17 C.F.R. § 275.204A-1 .................................

19

17 C.F.R. § 275.206(4)-7 (2007) ....................

19

Commission Interpretation Regarding Standard of Conduct for Investment Advisers,
Advisers Act Release No. 5248, 17 C.F.R.
Part 276 (June 5, 2019) ............................

19

v
TABLE OF AUTHORITIES—Continued
COURT FILINGS

Page(s)

Indictment, United States v. Persaud, No.
15-cr-00462 (E.D.N.Y. Sept. 14, 2015) .....

14

Indictment, United States v. Rosene et al.,
No. 3:12-CR-00369 (W.D.N.C. Nov. 15,
2012) ..........................................................

15

Information, United States v. Mercedes, No.
1:19-cr-00435 (D.N.J. June 21, 2019) .......

15

OTHER AUTHORITIES
Authorized, MERRIAM-WEBSTER.COM DICTIONARY, https://www.merriam-webster.
com/dictionary/authorized (last visited Aug.
26, 2020) ....................................................

5

Employee at Mortgage Company Admits
Illegally Accessing Computer to Steal
$2 Million, U.S. DEP’T OF JUSTICE (June
21, 2019), https://www.justice.gov/usaonj/pr/employee-mortgage-company-admitsillegally-accessing-computer-steal-2-mill
ion-0 ...........................................................

15

Former Fifth Third Staff ‘Stole Customer
Data’, Bank Confirms, BANKING EXCHANGE
(Feb. 19, 2020), https://www.bankingexch
ange.com/compliance-management/item/
8134-former-fifth-third-staff-stole-custom
er-data-bank-confirms ..............................

14

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Former JP Morgan Chase Bank Employee
Sentenced to Four Years in Prison for
Selling Customer Account Information,
U.S. DEP’T OF JUSTICE (Aug. 10, 2018),
https://www.justice.gov/usao-edny/pr/form
er-jp-morgan-chase-bank-employee-sente
nced-four-years-prison-selling-customer ....

14

Former Online Mortgage Broker Employee
and Mortgage Broker Conspirator Sentenced to Prison for Computer Theft, U.S.
DEP’T OF JUSTICE (Dec. 15, 2014), https://
www.justice.gov/usao-wdnc/pr/former-onl
ine-mortgage-broker-employee-and-mortg
age-broker-conspirator-sentenced-prison ....

15

Lauren Tara LaCapra & Tanya Agrawal,
Morgan Stanley Says Wealth Management Employee Stole Client Data,
REUTERS (Jan. 5, 2015), https://www.reut
ers.com/article/us-morgan-stanley-data/mo
rgan-stanley-says-wealth-management-em
ployee-stole-client-data-idUSKBN0KE1A
Y20150106 ......................................................

14

PONEMON INSTITUTE, 2020 COST OF INSIDER
THREATS: GLOBAL REPORT (2020), available at https://www.observeit.com/2020
costofinsiderthreat ....................................

13

2 WILLIAM BLACKSTONE, COMMENTARIES ON
THE LAWS OF ENGLAND (1ST ED. 1765-69) ...

18

INTEREST OF AMICUS CURIAE1
Managed Funds Association (“MFA”) is a not-forprofit membership organization representing the global
alternative investment industry. MFA is an advocacy,
education, and communications organization established
to enable advisers to investment funds and managed
futures funds to participate in public policy discourse,
share best practices, learn from peers, and communicate the industry’s contributions to the global economy.
MFA’s more than 4,200 professional members represent managers of hedge funds, separately managed
funds, managed futures funds, and their service
providers.
MFA members represent a significant portion of
the American economy. MFA’s over 200 investment
management member firms include many of the nation’s
largest investment institutions, collectively managing
more than $1.1 trillion in capital, a figure which
comprises nearly two-thirds of the capital managed
by the fifty largest U.S.-based hedge funds. Member
firms are headquartered in nineteen states and employ
more than 10,000 individuals in addition to tens of
thousands of additional employees working at MFA
member banks. MFA investment management firms
are fiduciaries to their clients. The investors of the
client funds of MFA members predominantly include
pension plans, university endowments, charitable
foundations, and philanthropic trusts. The goal of
these investors is to diversify their investments, manage

1

Pursuant to Supreme Court Rule 37.6, no counsel for a party
authored this brief in whole or in part. No person or entity other
than the Managed Funds Association and its members made any
monetary contribution to fund the preparation or submission of
this brief. The parties have consented to this filing.

2
risks, and generate reliable returns over time for
retirees, students and other beneficiaries.
MFA members include some of the most intensive
computing and data-reliant businesses in the world.
Modern financial decision-making relies on massive
amounts of data, sophisticated algorithms, and the application of computer processing power — each one an area
in which MFA members invest in heavily. Yet while
computer-based analyses and trading tools have been
a boon to the investment industry, they have also given
rise to the unfortunate side effect of data misappropriation and theft of confidential intellectual property. As
has been demonstrated in several high-profile instances,
the portability of digital information has given unscrupulous employees of financial firms the motivation to steal
their employer’s digital assets, often with the intent of
benefiting themselves or their future employers. MFA
members therefore expend substantial resources in
securing their digital assets — especially those assets
which are proprietary and highly confidential.
Notwithstanding these efforts, it is an unavoidable
consequence of conducting an analytical business that
certain employees and other third parties must be
granted access to sensitive and non-public information
residing on MFA member databases and systems. When
those individuals are responsible for information theft,
victimized financial firms can only rely upon the law
— including the Computer Fraud and Abuse Act — to
protect themselves. MFA is therefore concerned that
Petitioner’s narrow reading of the term “authorized”
as used in that statute would, if adopted by this Court,
substantially weaken MFA member firms’ ability to
prevent the theft of their highly valuable confidential,
non-public proprietary data and intellectual property.

3
SUMMARY OF ARGUMENT
The Computer Fraud and Abuse Act (Title 18, United
States Code, section 1030) (“CFAA”) is unquestionably
the most important federal statute protecting American
computer systems and the data stored on those systems. As digital technology has become ever more
central to the economy, the CFAA has, in a corresponding fashion, increased in importance. Adopted in the
pre-Internet age, when computer security was in its
relative infancy, the CFAA could not have been drafted
with precise knowledge of how computers would
eventually come to be used, or how those evolving
complexities could generate uncertainty concerning
the meaning of apparently simple statutory language.
Yet Congress’ fundamental purpose in enacting
the law — which must be reflected in interpreting the
statute — was clearly and unambiguously to protect
non-public computer systems and confidential data
from the threats posed by malicious actors.
At issue in this case is the definition of the words
“without authorization,” an element of several of the
CFAA’s enumerated criminal offenses (and, by reference,
the statute’s civil provision), as well as its statutory
companion, “exceeding authorized access.” As courts
addressing the issue have often remarked, the lack of
an explicit definition in the CFAA of what constitutes
“authorization,” and perhaps more importantly what
parameters dictate when authorization is lacking,
has generated uncertainty as to how the statute
should be applied. Interested parties have advanced
— or proposed as evils that must be avoided — rather
extreme interpretations of the term. Those favoring
the narrowest possible scope of the term argue that
any activity is “authorized” unless technical measures
are deployed specifically to prevent it. Under such a

4
definition, the CFAA would become essentially an
anti-circumvention statute, prohibiting only the conduct
of those who “hack” through the security of a computer
system. On the other extreme are those who champion
an extremely broad interpretation of what constitutes
“unauthorized access,” reasoning that any violation
of the most innocuous contractual terms concerning
computer access should qualify, even if the data in
question is publicly-viewable by anyone with Internet
access. Such advocates miss the obvious point that
there is an array of activity involving access to nonpublic data that, while not within the conventional
view of malicious “hacking” by outside individuals or
groups, is nonetheless clearly without authorization
under any reasonable, common sense interpretation of
that term. MFA submits that among the actions
which should be understood as violative of the CFAA
are those of employees (and other insiders) which
violate plainly communicated, expressly agreed to,
unambiguous restrictions on the use of non-public
computer systems and non-public data on those systems.
MFA’s concerns with Petitioner’s (mis)reading of
the CFAA are not hypothetical. In particular, our
members are keenly aware of, and acutely concerned
by, the threat posed by the exploitation of its members
computer systems by faithless employees, contractors,
vendors, suppliers and other third party “insiders”
with permissioned access to member systems. The
theft of such intellectual property or proprietary information harms investment managers, fund investors,
potentially other market participants and the economic
competitiveness of U.S. firms to the extent that such
property is exported to a foreign competitor. Indeed,
in recent years, financial firms have seen a marked
increase in the prevalence of data theft and attempted
data theft by such “insiders.” These incidents include

5
not only widely reported-upon events which have
given rise to criminal proceedings, but also countless
other thefts and attempted thefts which, for various
reasons, do not come to the public knowledge. Moreover,
the adoption of a narrow reading of the CFAA in
certain circuits has served as a deterrent to firms who
would otherwise seek to vindicate their rights in
federal court.
MFA respectfully submits that adopting the extremely
narrow scope of the CFAA advocated by Petitioners
belies the ordinary meaning of the word “authorized.”2
It also defies common sense. Such a narrow reading
renders the CFAA powerless against the most significant cyber-security threat faced by many financial
firms: the threat of insider malfeasance related to
trade secrets and other confidential data and IP.
Simply put, if the line between authorized and unauthorized activity is only defined with reference to
technological controls protecting against outside
hackers, then it becomes nearly impossible for any
user of a computer system with access credentials to
that system — such an investment firm employee —
to violate the CFAA, no matter how egregious his
conduct in relation to non-public data on those systems.
MFA believes that a better interpretation of the
CFAA is to apply the common, dictionary definition of
the term “authorization” when applying the statute.
Rather than reading into the CFAA a requirement of
circumventing a technological access control — a term
conspicuously absent from the statutory text —
2

See, e.g., Authorized, MERRIAM-WEBSTER.COM DICTIONARY,
https://www.merriam-webster.com/dictionary/authorized (last visited
Aug. 26, 2020) (defining “authorized” as “sanctioned by authority:
having or done with legal or official approval”).

6
factfinders should instead determine the answer to
this straightforward question: “Was the defendant
specifically and knowingly prohibited from engaging
in the complained-of conduct concerning the nonpublic systems and non-public data in question?”
ARGUMENT
I. PETITONER’S INTERPRETATION OF THE
CFAA, IF ADOPTED, WOULD LIMIT THE
APPLICABILITY OF THE CFAA ALMOST
ENTIRELY TO THE ACTIONS OF OUTSIDERS, RENDERING IT INEFFECTIVE
AGAINST THE OFTEN FAR MORE SIGNIFICANT THREAT POSED BY FAITHLESS
INSIDERS TO CONFIDENTIAL COMPUTER
SYSTEMS AND INFORMATION
A. Modern Financial Firms Gather, Create,
Maintain, and Rely Upon Massive
Amounts of Non-Public Data and
Proprietary Programs in the Course of
Conducting their Business
Without a doubt, investment firms are among the
most technologically advanced and technology-reliant
businesses in the American economy. While the types
of systems and data used by each firm vary substantially in accordance with the nature and character of
their investment activities, a high-level overview of
the digital assets maintained by such institutions sheds
light on the importance and breadth of computerized
information used in the field. It also underscores the
criticality to member firms’ competitive position of
being able to keep confidential data and systems that
it has expended time and effort creating.



7
Personal Information and Personal Financial
Information. Like all businesses, financial firms
maintain non-public personal information, often
quite sensitive, concerning their employees and
clients. In particular, as a necessary incident to
providing investment services, most firms also
maintain confidential digital records of their
clients’ investments, income, tax information,
and other financial and sensitive records.



Research and Data Analysis. Firms’ research
departments typically produce proprietary analyses, often in the form of confidential analyses
and White Papers, of markets and investment
strategies.



Trading Strategies, Platforms, and Source Code.
At the most fundamental level, an investment
firm’s business is to implement trading strategies that provide clients with the best possible
returns on their investments. As such, investment firms often expend considerable resources
developing their own confidential trading strategies. Indeed, it is these “secret sauce” strategies
which provide much of the value of a firm to
a prospective client and which differentiate
one firm from another. Although in some cases
trading strategies can be written out in humanreadable form and executed manually, often the
strategies consist of intricately detailed confidential statistical models which operate on realtime feeds of massive amounts of market data.
In many instances, the systems which run these
models not only assist in making investment
decisions, but also execute the trades in an automated fashion. Such automated trading systems

8
require development of software platforms which
can quickly and efficiently execute transactions.


Data from Diverse Sources. Financial firms
have always relied on traditional forms of
market data, including records of stock prices
and transactions, financial records of publicly
traded companies, broad economic indicators,
interest rates, currency exchange rates and
similar data inputs. In recent years, however,
investment firms have gathered and incorporated
into trading strategies an ever-broadening array
of data sets from a range of diverse sources.
These data sets can include financial data such
as credit card data, as well as non-financial data
(for example, weather data, satellite imagery, and
real-time inventory monitoring). Often, member
firms expend substantial resources aggregating,
analyzing, and interpreting these new datasets
in order to create powerful confidential strategies to maximize client returns.
B. Certain Employees and Third Parties
Must Be Granted Access to Valuable
Proprietary Data and Systems in Order
for Those Systems to Operate Properly

The development of non-public confidential trading
strategies and the computing platforms upon which
those strategies are executed is, of course, accomplished through the efforts of individual employees of
financial firms. For example, an algorithmic trading
strategy may be embodied in a complex spreadsheet
which takes as its inputs a data feed of trades in a
given market and which will execute a trade if certain
conditions (embodied in computational formulas embedded within the spreadsheet) become satisfied. These
confidential formulas — and by extension the trading

9
strategy itself — are developed and maintained by
analysts and programmers working for the trading
firm. Each of these people must have technological
access to the spreadsheet in order to develop and
implement the strategy. Similarly, in the context of
non-automated trading, investment professionals must
have access to confidential research materials and
analyses — often developed in-house and essentially
always maintained in computerized format — in order
to use the contents of those materials in making
investment decisions.
Notably, however, the personnel who must have
access to a firm’s computing environment are not
limited to investment professionals. Other employees,
including sales personnel, compliance, operations and
back-office and support staff, will require access to
communications and records systems. Moreover, technicians who maintain the computer systems themselves
(who may or may not be employees of the firm) will
often have “administrator” level permissions, permitting largely unfettered access to stored data. In
addition, numerous non-employee personnel, including IT and other contractors, as well as temporary
workers, also regularly have access to confidential
firm and customer data.
C. Investment Firms Implement Robust
Procedures to Secure their Digital
Assets
As noted above, financial firms invest heavily in the
acquisition of data and the development of analytical
tools and reports. Given that firms obtain substantial
value from these assets, it is natural that they go to
great lengths to secure those confidential materials
from loss, corruption, and theft. Crucially, these safe-

10
guards include both technical as well as contractual
and procedural elements. Both are described more
fully below.
To begin with, investment firms implement some of
the most stringent technical access control, employee
monitoring, and cybersecurity measures of any private
entities. Like other businesses, they typically require
individualized computer access credentials, limit access
to systems necessary for an individual’s job functions,
monitor electronic communications, log the dates and
times files are accessed by employees, and deploy
firewalls with robust Data Loss Prevention (“DLP”)
controls. Many firms go far beyond those prosaic
methods, taking steps such as preventing access to
outside email systems and cloud-storage services,
disabling corporate systems from being able to connect
to external peripherals such as portable hard drives,
conducting video surveillance of their offices, and
requiring personal electronics (including cellular phones)
to be stored outside of the areas where access to
computer systems is provided. Importantly, many of
these practices limit technical access to data (e.g.,
limiting users to accessing only job-relevant systems).
Under either the broad or narrow interpretations of
the CFAA, defeating these protections may be indicative of “unauthorized” activity. Yet many of these
protections are expressly designed to prevent individuals who are permitted to access proprietary data from
removing it from the firm’s computing environment
(e.g., preventing the connection of portable hard drives
to firm systems). The presence of these security
measures serves as a clear indication that while
firm employees may be permitted to access and use
confidential information while at work, they are not
authorized to remove that data from the premises.

11
Another group of data protection safeguards utilized
by financial firms consists of non-technical limitations
on employee conduct. These measures consist primarily of contractual agreements and policies and procedures all of which are often reinforced through
training. For example, typically at the outset of employment (and often periodically thereafter), employees of
a financial firm will agree to non-disclosure and
confidentiality agreements as part of their employment contracts. These agreements are often extremely
detailed, with explicit prohibitions against certain
actions such as removal of confidential firm data from
the employer’s computing systems and environment.3
Notwithstanding those features, Petitioners and
other proponents of the “narrow” interpretation of
the CFAA argue that such non-technical policies are
entirely irrelevant to the issue of whether an employee
exceeds their authorized access when the employee
circumvents those non-technical controls and violates
the clear and unambiguous terms of his employment
contract in connection with non-public, confidential
data and IP belonging to the employer. This view is

3

Notably, this appeal does not implicate the question of
restrictions, through terms of service or otherwise, ostensibly
related to publicly accessible information — for example, data
which can be accessed by anyone through public-facing websites.
That issue is not before this Court. It is, however, worth noting
that MFA member contractual data protection controls related to
non-public data are entirely dissimilar to a public website’s terms
of service, which are often vague and often assertedly apply
to public data on the site. In contrast, MFA employees’ nondisclosure and confidentiality contracts and policies regularly
contain provisions which are (1) limited to non-public systems
and data, (2) consistently and conspicuously monitored, and (3)
reinforced through periodic training.

12
not supported by the plain language of the CFAA. It
also makes no sense.
II. INVESTMENT FIRMS ARE UNDER CONSTANT THREAT OF DATA THEFT BY
FAITHLESS INSIDERS
The proprietary computerized information generated
by investment firms is intrinsically valuable, as many
of those data sets, algorithms, and trading platforms
are used quite directly to generate revenue for investors.
While the vast majority of employees at investment
firms are conscientious and trustworthy, it only takes
one unscrupulous employee to severely damage and
even destroy a well-built investment management
business. In the hands of knowledgeable competitors
with adequate resources, misappropriated confidential
financial intellectual property can be used to set up
a competing business without the need to invest in
costly research and development.4 These factors, combined with the frequency with which employees in the
field move between competing firms, unfortunately
serve as strong incentives for unscrupulous individuals to attempt to transfer proprietary information to
their new firms.

4

Some firms specifically manage their workforce in a manner
which does not require complete knowledge of confidential trading
strategies by any single individuals (i.e., “siloing” information) to
avoid precisely this threat. However, there are limits to how far
such efforts can go. Although it is common for researchers to
specialize in one area, for portfolios which consist of different kinds
of asset classes or securities of companies from different industries,
there is benefit in joint research, collaborative idea generation,
and data and information sharing so that researchers can have a
more full understanding of micro- and macro-economic factors.

13
These dangers are far from theoretical: the scale
of insider threats to financial firms is staggering.
According to the 2020 Cost of Insider Threats Global
Report study by the well-respected Ponemon Institute,
the financial services industry (defined to include
banking, insurance, investment management and
brokerage organizations) has experienced the highest
cost of responding to insider threats of any industry.5
Financial services also experienced the second-fastest
increase in the number of insider incidents of any
business sector, experiencing a 20.3% increase over
two-years.6 Moreover, the Ponemon study found
that incidents involving the criminal or malicious (as
opposed to negligent) actions of faithless “insiders”
cost organizations an average of $755,760 per incident,
and comprised 23% of all reported incidents involving
insiders.7
Most insider threats to financial firms’ confidential
computer systems fall within a defined number of
patterns. These include:


Facilitation of Identity Theft and Fraud. As
required by statute and regulation, financial
firms are required to retain records of extremely
sensitive confidential personal information concerning their clients, including their names,
addresses, account numbers, and tax information,
among other sensitive information. In this
scenario, corrupt firm employees target the
personal information that their employers

5

PONEMON INSTITUTE, 2020 COST OF INSIDER THREATS:
GLOBAL REPORT 22 (2020) (available at https://www.observe
it.com/2020costofinsiderthreat).
6

Id. at 5.

7

Id. at 4.

14
maintain concerning firm clients in connection
with identity fraud. Sadly, this fact pattern has
become increasingly common. The most recent
such incident became public earlier this year,
when Fifth Third Bank, a $169 billion banking
and financial services group, announced that a
small number of its former employees accessed
and misused consumer data to commit fraud.
The bank contacted at least 100 customers
possibly impacted.8 Indeed, in some cases,
insiders may simply sell client information to
criminal organizations. For example, in United
States v. Persaud, the defendant, a former
employee of JP Morgan Chase Bank abused his
access to the bank’s systems by obtaining and
selling the confidential personal and account
information of customers.9

8

Former Fifth Third Staff ‘Stole Customer Data’, Bank
Confirms, BANKING EXCHANGE (Feb. 19, 2020), https://www.
bankingexchange.com/compliance-management/item/8134-formerfifth-third-staff-stole-customer-data-bank-confirms.
9

Former JP Morgan Chase Bank Employee Sentenced to Four
Years in Prison for Selling Customer Account Information, U.S.
DEP’T OF JUSTICE (Aug. 10, 2018), https://www.justice.gov/usaoedny/pr/former-jp-morgan-chase-bank-employee-sentenced-four-ye
ars-prison-selling-customer; see also Indictment, United States v.
Persaud, No. 15-cr-00462 (E.D.N.Y. Sept. 14, 2015). See also
Lauren Tara LaCapra & Tanya Agrawal, Morgan Stanley Says
Wealth Management Employee Stole Client Data, REUTERS (Jan.
5, 2015), https://www.reuters.com/article/us-morgan-stanley-da
ta/morgan-stanley-says-wealth-management-employee-stole-clientdata-idUSKBN0KE1AY20150106 (discussing a wealth management
employee who stole account information of approximately 350,000
clients and attempted to sell it online).





15
Effecting Fraudulent Financial Transactions.
In another scenario, insiders may abuse their
access to firm systems to directly steal money.
As an example, between April 2014 and May
2017, Dilcia Mercedes, a payment processor
employee of a mortgage lender abused her access
to the company’s computer system to make
hundreds of fraudulent wire transfers and steal
over $2 million. She was indicted on and pleaded
guilty to charges including unauthorized access
of a computer with intent to defraud under 18
U.S.C. § 1030(a)(4).10
Theft of Confidential Business Information.
Business plans and customer lists have also
frequently been targeted by corrupt insiders. In
one conspiracy, a former employee of an online
mortgage broker sold company-employee log-in
credentials to another mortgage broker, who
subsequently used the company’s database to
steal thousands of mortgage leads. The conspirators were charged with and pleaded guilty
to charges including CFAA violations.11

10

Employee at Mortgage Company Admits Illegally Accessing
Computer to Steal $2 Million, U.S. DEP’T OF JUSTICE (June 21,
2019), https://www.justice.gov/usao-nj/pr/employee-mortgage-co
mpany-admits-illegally-accessing-computer-steal-2-million-0; see
also Information, United States v. Mercedes, No. 1:19-cr-00435
(D.N.J. June 21, 2019).
11

Former Online Mortgage Broker Employee and Mortgage
Broker Conspirator Sentenced to Prison for Computer Theft, U.S.
DEP’T OF JUSTICE (Dec. 15, 2014), https://www.justice.gov/usaowdnc/pr/former-online-mortgage-broker-employee-and-mortgagebroker-conspirator-sentenced-prison; see also Indictment, United
States v. Rosene et al., No. 3:12-CR-00369 (W.D.N.C. Nov. 15,
2012).



16
Theft of Algorithmic Trading Code and Trading
Platform Source Code. Perhaps the highest
profile incidents of employee theft of investment
firm data in recent years have concerned the
removal of highly confidential trading algorithms
themselves — particularly high frequency
trading algorithms — and the source code for
the platforms that execute transactions. Given
the extreme investment required to develop
these assets and the incredible value they
represent, such incidents have given rise to
protracted litigation, including at the appellate
level. Most notable of these cases is United
States v. Aleynikov, which concerned a former
Goldman Sachs computer programmer who
was accused of misappropriating source code for
the firm’s high-frequency trading system.12
The Aleynikov case is particularly notable for
present purposes as, prior to trial, the District
Court dismissed the CFAA charge against the
defendant, reasoning that the “phrases ‘accesses
a computer without authorization’ and ‘exceeds
authorized access’ cannot be read to encompass
an individual’s misuse or misappropriation of
information to which the individual was permitted access.”13

12

United States v. Aleynikov, 676 F.3d 71 (2d Cir. 2012). See
also United States v. Agrawal, 726 F.3d 235 (2d Cir. 2013) (involving the theft of computer code underlying Société Générale’s highfrequency trading platform).
13

United States v. Aleynikov, 737 F. Supp. 2d 173, 192
(S.D.N.Y. 2010).

17
III. THE
READING
OF
THE
CFAA
ADVANCED BY PETITIONER UNDERCUTS THE STATUTE’S EFFECTIVENESS
AT PREVENTING CYBERCRIME AND IS
CONTRARY TO THE PLAIN MEANING OF
THE STATUTORY LANGUAGE
In determining the proper understanding of the
CFAA, this Court should be cognizant of the practical
reality of how access to computer systems is provided
by corporations such as MFA members and avoid
adopting an extremely constricted reading that focuses
solely on technological access controls to the exclusion
of all other factors. MFA respectfully submits that a
more reasonable approach, and one which comports
with the common understanding of “authorization” as
a quality which must be granted, would take into
consideration both technological controls and the
understanding of the parties as to what actions are
(and are not) permitted in relation to confidential
data. More particularly, in the context of employee
access to confidential data housed on non-publicly
accessible, employer-operated computers, a proper
and balanced understanding of the statute should take
into holistic consideration the (1) clearly communicated and agreed-to understandings of the parties
as embodied in employment contracts and policies,
(2) training and monitoring, and (3) the facts and
circumstances of access as applied in practice.

18
A. Giving Weight to the Terms of Employment Contracts and Policies Reinforces
the Common Understanding that One’s
Rights Concerning the Property of
Another Extend Only as Far as They
Are Granted
It is axiomatic to the law of property that, absent a
grant of permission, one is not entitled to use the
property of another.14 In the context of employerprovided computer systems and confidential data, this
axiom is reinforced by practical considerations: unless
and until an employee is issued access credentials to a
confidential system or database, she has neither the
right nor the ability to use the system or access the
data stored thereon.
The analysis does not, however, end there. The next
question becomes whether an employer, in granting
access credentials to an employee, retains the right to
impose conditions upon the use of those credentials.
Clearly, they do. In fact, MFA member firms collectively have spent tens of millions of dollars creating,
and implementing conditions on data access, use, and
misuse. Member firms have likewise collectively spent
hundreds of millions of dollars on training employees
on these policies and in enforcing policy violations.
Moreover, numerous statutory laws and regulations —
not to mention fiduciary duties and obligations —
affirmatively require member firms to proactively
safeguard confidential and non-public data through
contractual and policy controls. See, e.g., Section 206
14

2 WILLIAM BLACKSTONE, COMMENTARIES ON THE LAWS OF
ENGLAND (1ST ED. 1765-69) *2 (defining property as “that sole and
despotic dominion which one man claims and exercises over the
external things of the world, in total exclusion of the right of any
other individual in the universe”).

19
of the Investment Adviser Act of 1940 (“Advisers
Act”)15 and Commission Interpretation Regarding
Standard of Conduct for Investment Advisers (stating
that Section 206 imposes a fiduciary duty on an investment adviser);16 Rule 206(4)-7 under the Advisers Act
(requiring investment advisers registered with the
Securities and Exchange Commission (“SEC”) to adopt
and implement written policies and procedures that
are reasonably designed to prevent violations of the
Advisers Act);17 Rule 204A-1 under the Advisers Act
(requiring investment advisers to adopt a written code
of ethics that includes a standard of conduct reflective
of its fiduciary obligations, and to require employees
to comply with the code of ethics and other legal
requirements); Reg S-P18 (requiring SEC regulated
members to adopt written policies and procedures
addressing administrative, technical, and physical
safeguards for the protection of customer records and
information); Reg S-ID19 (requiring SEC registered
investment advisers and broker-dealers to develop
and implement a written identity theft prevention
program that is designed to detect, prevent, and
mitigate identity theft in connection with the opening
of a covered account or any existing covered account);
Rule 10b-5 under the Securities Exchange Act of 1934
(regulating trading based on material non-public information).

15

15 U.S.C. § 80b-6 (2012).

16

Commission Interpretation Regarding Standard of Conduct
for Investment Advisers, Advisers Act Release No. 5248, 17
C.F.R. Part 276 (June 5, 2019).
17

17 C.F.R. § 275.206(4)-7 (2007).

18

17 C.F.R. § 248.201 (2016).

19

17 C.F.R. § 248.201 (2016).

20
Indeed, an entire compliance industry of lawyers,
consultants, and subject-matter experts exists to assist
member firms in abiding by these policy requirements.
MFA submits that, in light of this bevy of mandates to
protect confidential information from theft or misuse
by outsiders and insiders, it would be anomalous (to
say the least) for the CFAA to be interpreted in a
manner that renders it wholly ineffective to vindicate
these obligations against corrupt insiders.
B. An Interpretation of the CFAA Which
Excludes All Actions of Those with
Legitimate Access to a Computer
System Improperly Limits the Statute
in a Manner Inconsistent with the
Actual Text of the Statute
Proponents of the narrow interpretation of the
CFAA advocate that this Court ignore the plain text of
the statute. In effect, they maintain that the statute
should be read either by inserting an implied clause —
“by circumventing a technological access control
mechanism” — into each of the several provisions
that include the term “without authorization” or by
ignoring a portion of the text — “or exceeds authorized
access” — which is present. Either option would be an
impermissible revision of the actual text of the CFAA.
As a threshold matter, if Congress wished to limit
authorization to a purely technological matter, it could
have done so. For example, the anti-circumvention
provision of the Digital Millennium Copyright Act,
Title 17 United States Code, section 1201(a)(1)(A),
specifically prohibits the “circumvent[ion] of a technological measure that effectively controls access” to a
copyrighted work.20 Had Congress intended Section
20

17 U.S.C. § 1201(a)(1)(A) (2012).

21
1030 to be limited solely to persons who bypass
technological barriers, it could have included similar
language.
In addition, adopting a narrow interpretation of
“without authorized access” would render another
part of the CFAA meaningless. Under Petitioner’s
reasoning, any time a user accesses a computer either
she has done so without authorization, and has
violated the CFAA, or she was authorized to access
the computer and no further inquiry is needed. The
problem with this wooden dichotomy is that it renders
null the companion phrase “exceeds authorized access.”
That is because if any activity accomplished following
initial authorized access is declared not to violate the
CFAA, then what function does “exceeds authorized
access” serve?21
We submit that the only interpretation of the
combined phrase “accesses a computer without authorization or exceeds authorized access” which neither
inserts language not present in the text nor reads text
out of the statute entirely is one which recognizes that
“authorization” is not merely a technological concern
— it also takes into account contractual and policy
restrictions — and that it is possible to violate the
CFAA even following “technologically authorized”
access to a computer system.

21

18 U.S.C. § 1030(e)(6) (2012) (defining “exceeds authorized
access” as to “access a computer with authorization and to use
such access to obtain or alter information in the computer that
the accesser is not entitled so to obtain or alter”).

22
C. Concerns that a Broad Interpretation
of “Without Authorization” under the
CFAA Would Require Examination of
Defendants’ Subjective Motivations
Are Not Significant in the Context of
Clearly-Communicated, Action-Based
Limitations on Authorization
Some courts, in choosing between the “narrow” and
“broad” interpretations of the CFAA are significantly
concerned with the need to delve into the subjective
intentions of a defendant and to rest a determination
of whether conduct is unlawful on whether that subjective intent is contrary to the defendant’s employer’s
interests.22 While this difficulty may sometimes be
present, rejecting a broader interpretation on these
grounds ignores the fact that in the vast majority of
cases, subjective intent is largely irrelevant to the
analysis. This is particularly true when an employer
has clearly communicated prohibitions on specific
actions the employee may take. For example, if an
employer informs an employee that she may not run
cryptocurrency mining software on firm computer
systems, it is clear that if she subsequently does run
cryptocurrency mining software then her actions are
unauthorized, whether or not her intent was to harm
her employer. The inquiry can begin and end with an
analysis of the employee’s actions.
Similarly, and more relevant to financial firms,
communicated limitations on use are not typically
limited to the simple statement “you may only use the
22

See, e.g., Enhanced Recovery Co. LLC v. Frady, No. 3:13-cv1262, 2015 WL 1470852, at *4–6 (M.D. Fla. Mar. 31, 2015)
(rejecting the broad interpretation of the CFAA because the
“analysis focuses on the actions of the employer rather than the
subjective motivation of the employee”).

23
computer system for purposes of completing your
assigned work.” In reality, firms (typically in confidentiality or non-disclosure agreements) explicitly
enumerate prohibited actions, including, for example,
“you may not copy any data from the firm’s computing
systems to any storage device or service not controlled
by the firm.” Yet under the Petitioner’s narrow interpretation of the CFAA, an authorized user of firm data
could ignore this restriction entirely without risking
criminal penalty (or civil liability under the CFAA’s
civil provision) because the analysis begins and ends
with the provision of access. However, taking into
consideration the unambiguous “no copying” rule, the
broader reading of the CFAA can be imposed without
need to consider the defendant’s motivations at all.
D. Taking into Consideration Policy and
Contract-Based Limitations on Computer
System Use in the Context of EmployerProvided Systems Raises No More
“Private Criminal Law” Concerns than
Does Consideration of TechnologyBased Controls
Another concern raised by opponents of a broad
interpretation of “without authorization” in the context of the CFAA is that it allows private parties to
make criminal laws through imposition of contractual
terms.23 These arguments are often bolstered by
rather farfetched examples of “browse-wrap” or “clickwrap” terms of service or use for public websites, the
minor violation of which sends an unsuspecting websurfer to a federal penitentiary.24
23

Brief for Computer Security Researchers et al. as Amici
Curiae 17.
24
Brief for the National Association of Criminal Defense
Lawyers as Amicus Curiae 21-22.

24
What this argument ignores is that technical
restrictions on access to computer systems are every
bit as under the control and subject to the supposed
whims of system operators as are contractual limitations. There is no natural right to access a computer,
nor is the scope of what one can do when accessing a
computer subject to any controls other than those
which the operator elects to impose. The contractual
limitations and the technological limitations are both
in a sense artificial. Considering that both arise from
the decisions and authority of the system operator,
treating, for example, a violation of a firewall rule
preventing access to an offshore Internet casino as a
potentially violative of the CFAA while at the same
time treating as entirely irrelevant a clear employee
policy against using firm computer systems for gambling should lead to cognitive dissonance. Instead,
both should be given consideration, in a balanced and
holistic manner, as the true issue is whether the firm,
as owner and operator of the computing system, is free
to place limits on how its employees use their nonpublic systems and data.
E. Focusing Purely on Technological Access
Controls Leads to Plainly Absurd Results
If the only factor given weight in assessing whether
a defendant’s actions directed toward a computer
system is whether he is, as a technical matter, able
to access specific systems or data, absurd and nearly
contradictory conclusions necessarily follow. Assume,
for example, that a financial firm employs Defendant
and has granted him access to exactly those computer
systems required for his job. At some point, Defendant
transfers to another department of the same firm,
requiring access to a different set of systems.



25
Case 1: The firm’s IT department inadvertently
changes Defendant’s technical permissions a
day too early. In order to complete his assigned
tasks, he uses a coworker’s credentials to access
the required confidential files. Since Defendant
lacked technical access, his action is unauthorized.



Case 2: The Defendant’s transfer occurs midweek, but, due to the manner in which the firm’s
IT department operates, his former permissions
will not be revoked until the end of the week.
Defendant’s supervisor specifically reminds him
that, having transferred out of the department,
he no longer has permission to access the department’s confidential systems and data and should
refrain from doing so. The Defendant agrees to
this limitation, which aligns with his employment agreement. Later that day, the Defendant
accesses the files of his former department and
maliciously deletes them. Because his credentials were still valid, his actions for purposes of
the CFAA are still ironically authorized.



Case 3: Due to a configuration error, the transferred Defendant is inadvertently given access
to the firm’s human resources system. Although
unrelated to his job, and knowing he should not
do so, he takes the opportunity to read the
confidential HR files of several of his coworkers.
Because of the configuration error, his spying on
his coworkers is considered authorized activity.

Each of these situations results in an unexpected
and irrational outcome as a result of an analysis which
focuses exclusively on technological access controls. In
the latter two cases, clearly blameworthy activity, far
outside the intent of the employer in granting access,
is rendered “authorized” by application of Petitioner’s

26
analysis. On the other hand, an approach which considers additional factors would result in more sensible
conclusions — conclusions which would comport with
any reasonable observer’s expectations and the purposes for which the CFAA was adopted.
CONCLUSION
In light of the increasing threat to investment firms’
computerized systems and data posed by faithless
insiders, a narrow interpretation of the CFAA which
limits the statute’s applicability only to the actions of
outsiders with no legitimate use of a system would
substantially undercut federal criminal law’s protection of those systems and simultaneously render
ineffective the civil provision of the CFAA for the same
purpose. In order to provide redress for victimized
firms and to align the application of the CFAA with its
common sense interpretation, this Court should imbue
the statutory phrases “without authorization” and
“exceeds authorized access” their plain meanings in a
balanced way, rendering them applicable both to
outside “hackers” and to inside wrongdoers who have
clearly and explicitly agreed to policy-based limitations on their use of their employers’ confidential
computer systems and data.
Respectfully submitted,
JOSEPH V. DEMARCO
Counsel of Record
DAVID M. HIRSCHBERG
DEVORE & DEMARCO LLP
99 Park Avenue, Suite 1100
New York, NY 10016
(212) 922-9499
(917) 576-2369
jvd@devoredemarco.com
September 1, 2020

Counsel for Amicus Curiae

